TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                      Potentially Dangerous Taxpayer and
                        Caution Upon Contact Cases Are
                   Adequately Controlled, but Improvements
                     in Training and Outreach Are Needed



                                        January 18, 2013

                              Reference Number: 2013-40-014




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 E-mail Address | TIGTACommunications@tigta.treas.gov
 Website        | http://www.treasury.gov/tigta
                                                     HIGHLIGHTS


POTENTIALLY DANGEROUS TAXPAYER                          However, some IRS employees who have direct
AND CAUTION UPON CONTACT CASES                          contact with taxpayers do not have sufficient
ARE ADEQUATELY CONTROLLED, BUT                          knowledge of the PDT and CAU Programs.
IMPROVEMENTS IN TRAINING AND                            Training courses and internal guidance for these
                                                        employees were incomplete or inaccurate.
OUTREACH ARE NEEDED
                                                        During interviews with employees, several
                                                        incidents were described that had not been
Highlights                                              appropriately reported to the TIGTA Office of
                                                        Investigations. The failure to report any threat or
Final Report issued on January 18, 2013                 verbal abuse can put other IRS employees at
                                                        risk if they later come into contact with the
Highlights of Reference Number: 2013-40-014             taxpayer face to face.
to the Internal Revenue Service Deputy
                                                        In addition, the OEP has not proactively ensured
Commissioner for Services and Enforcement.
                                                        that the business units provide adequate training
IMPACT ON TAXPAYERS                                     and guidance to these employees because of
                                                        organizational misalignment and staffing issues.
The IRS has the task of protecting                      The OEP is not located within the office whose
approximately 100,000 employees in more than            responsibilities include employee safety. The
700 facilities located throughout the country.          OEP should be realigned in the IRS’s
The safety of its employees has always been a           organizational structure to help better meet its
top priority for the IRS, especially the safety of      mission and to elevate its visibility to help bolster
those employees who have direct contact with            employee awareness. It might also allow the
the public. The establishment of the Office of          OEP access to resources to engage in proactive
Employee Protection (OEP) and the Potentially           agency-wide training and security involvement.
Dangerous Taxpayer (PDT) and Caution Upon
Contact (CAU) Programs was to improve the               WHAT TIGTA RECOMMENDED
IRS’s ability to identify taxpayers who represent
                                                        TIGTA recommended that the IRS establish
a potential danger to IRS employees.
                                                        processes to ensure that all front-line employees
WHY TIGTA DID THE AUDIT                                 receive annual PDT and CAU criteria training
                                                        and ensure that Internal Revenue Manual
This audit was initiated because IRS employees          sections for front-line employees include current,
can be exposed to many difficult, threatening,          complete, and accurate information on the PDT
and even extremely dangerous situations. Prior          and CAU Programs. Finally, the IRS should
attacks on IRS facilities demonstrate the               determine where the OEP should be aligned in
dangers that IRS employees face in performing           the organizational structure to enhance its
their jobs. The objectives of the audit were to         mission of providing an agency-wide service.
determine whether the OEP is effectively
administering the PDT and CAU Programs and              The IRS agreed with the recommendations and
whether it is proactive in identifying PDTs who         plans to develop and distribute PDT and CAU
might pose a threat to IRS employees.                   training material. It plans to ask the operating
                                                        divisions to review related Internal Revenue
WHAT TIGTA FOUND                                        Manual sections that reference PDT and CAU
                                                        procedures to ensure consistency with Internal
Tests of the Employee Protection System
                                                        Revenue Manual Section 25.4. It also plans to
records showed cases referred to the OEP were
                                                        evaluate the organizational structure to
controlled and accurately entered into all IRS
                                                        determine the best alignment of the OEP.
systems. Tests of 12 cases that underwent a
five-year renewal review identified that
established procedures were appropriately
applied to each case.
                                           DEPARTMENT OF THE TREASURY
                                                WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                          January 18, 2013


 MEMORANDUM FOR DEPUTY COMMISSIONER FOR SERVICES AND
                ENFORCEMENT


 FROM:                       Michael E. McKenney
                             Acting Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Potentially Dangerous Taxpayer and Caution
                             Upon Contact Cases Are Adequately Controlled, but Improvements in
                             Training and Outreach Are Needed (Audit # 201240007)

 This report presents the results of our review to determine whether the Office of Employee
 Protection is effectively administering the Potentially Dangerous Taxpayer and Caution Upon
 Contact Programs and whether it is proactive in identifying potentially dangerous taxpayers who
 might pose a threat to Internal Revenue Service employees. This audit was included in the
 Treasury Inspector General for Tax Administration’s Fiscal Year 2012 Annual Audit Plan and
 addresses the major management challenge of Security of Taxpayer Data and Employees.
 Management’s complete response to the draft report is included as Appendix IV.
 Copies of this report are also being sent to the IRS managers affected by the report
 recommendations. If you have any questions, please contact me or Augusta R. Cook, Acting
 Assistant Inspector General for Audit (Returns Processing and Account Services).
                                     Potentially Dangerous Taxpayer and
                            Caution Upon Contact Cases Are Adequately Controlled,
                            but Improvements in Training and Outreach Are Needed




                                             Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 5
          Controls Are Sufficient to Administer the Potentially
          Dangerous Taxpayer and Caution Upon Contact Programs ......................... Page 5
          Training and Guidance on the Potentially Dangerous
          Taxpayer and Caution Upon Contact Programs Need
          Improvement ................................................................................................. Page 7
                    Recommendations 1 through 3:......................................... Page 13


Appendices
          Appendix I – Detailed Objectives, Scope, and Methodology ....................... Page 14
          Appendix II – Major Contributors to This Report ........................................ Page 19
          Appendix III – Report Distribution List ....................................................... Page 20
          Appendix IV – Management’s Response to the Draft Report ..................... Page 21
                 Potentially Dangerous Taxpayer and
        Caution Upon Contact Cases Are Adequately Controlled,
        but Improvements in Training and Outreach Are Needed




                    Abbreviations

CAU           Caution Upon Contact
EPS           Employee Protection System
IDRS          Integrated Data Retrieval System
IMF           Individual Master File
IRM           Internal Revenue Manual
IRS           Internal Revenue Service
OEP           Office of Employee Protection
PARIS         Performance and Results Information System
PDT           Potentially Dangerous Taxpayer
TIGTA         Treasury Inspector General for Tax Administration
                                 Potentially Dangerous Taxpayer and
                        Caution Upon Contact Cases Are Adequately Controlled,
                        but Improvements in Training and Outreach Are Needed




                                            Background

The Internal Revenue Service (IRS) has the task of protecting approximately 100,000 employees
in more than 700 facilities located throughout the country. The safety of its employees has
always been a top priority for the IRS, especially for those
employees who have direct contact with the public. In
                                                              The February 2010 attack on an
dealing with the public, IRS employees can be exposed to         IRS facility in Austin, Texas,
many difficult, threatening, and even extremely dangerous      was a reminder of the dangers
situations. The February 2010 attack on an IRS facility in      that IRS employees face each
Austin, Texas, demonstrates the dangers that IRS                 day in performing their jobs.
employees face in performing their jobs.
                           Because the majority of the IRS workforce has daily and ongoing
                           interactions with the public, it is imperative that the IRS has programs that
                           focus on employee protection. In 1984, the IRS Commissioner assigned
                           the IRS Inspection Service1 the responsibility of developing a program to
                           improve the IRS’s ability to identify taxpayers who represented a
                           potential danger to IRS employees. The Inspection Service developed the
                           Potentially Dangerous Taxpayer (PDT) Program and was assigned full
                           responsibility for administering it.
                           For more than a decade, the PDT Program was the only means available
                           to advise employees of possible dangerous situations. Its emphasis was
                           on imminent danger or bodily harm and did not provide for less severe
                           circumstances. In Calendar Year2 1999, the IRS Commissioner chartered
                           a national task force with the sole objective of exploring and
                           recommending options to enhance the safety of IRS employees. The task
                           force led to the establishment of the Office of Employee Protection
                           (OEP), which is now responsible for administering the PDT Program
                           along with developing and administering the new Caution Upon Contact
                           (CAU) Program.




1
  The Treasury Inspector General for Tax Administration was created in Fiscal Year 1999, replacing the IRS’s
Inspection Service.
2
  The 12-consecutive-month period ending on December 31.
                                                                                                          Page 1
                               Potentially Dangerous Taxpayer and
                      Caution Upon Contact Cases Are Adequately Controlled,
                      but Improvements in Training and Outreach Are Needed



Criteria for PDT and CAU designations
For a taxpayer to be considered potentially dangerous, the designation of PDT must be based on
verifiable evidence, have a connection to tax administration, and meet the following criteria:

  IRS guidelines provide the             Taxpayers who physically assault IRS employees or
  following definitions:                  contractors or their immediate family.
  Assault: Direct physical               Taxpayers who attempt to intimidate or threaten IRS
  contact with the intent to cause
  physical harm, including striking
                                          employees or contractors or members of their immediate
  or attempting to strike with            family through specific threats of bodily harm, a show of
  objects, such as rocks or               weapons, the use of animals, or specific threatening
  bottles, or brandishing a               behavior (such as acts of stalking).
  weapon.
  Threat: Verbal or written
                                         Persons who are active members of groups that advocate
  expression of intent to cause           violence against IRS or other Federal employees, where
  harm to an IRS employee or              advocating such violence could reasonably be understood
  contractor or to an IRS                 to threaten the safety of IRS employees and impede the
  employee’s or contractor’s              performance of IRS duties.
  immediate family member. It
  also includes preventing an            Taxpayers who have committed the acts set forth in any of
  IRS employee or contractor
  from leaving a taxpayer’s               the preceding criteria, but whose acts have been directed
  business or residence, even if          against employees or contractors of other governmental
  no physical contact actually            agencies at Federal, State, county, or local levels.
  occurs.
                                         Taxpayers who are not classified as PDTs through
  Intimidate: Action intended to
  cause an IRS employee or                application of the above criteria but who have
  contractor to become timid or to        demonstrated a clear propensity towards violence through
  force or deter an IRS employee          acts of violent behavior within the five-year period
  or contractor from taking an            immediately preceding the time of classification as
  action.
                                          potentially dangerous.
The CAU designation must be based on reliable evidence, have a connection to tax
administration, and meet the following criteria:
      Threat of physical harm that is less severe or immediate than necessary to satisfy
       PDT criteria.
      Suicide threat by the taxpayer.
      Filing or threatening to file a frivolous lien or a frivolous criminal or civil action against
       an IRS employee or contractor or their immediate family.
Taxpayers who are designated as PDT or CAU will retain the designation for five years. At the
end of the five-year period, their cases are reviewed against PDT or CAU renewal criteria. If

                                                                                               Page 2
                              Potentially Dangerous Taxpayer and
                     Caution Upon Contact Cases Are Adequately Controlled,
                     but Improvements in Training and Outreach Are Needed



taxpayers meet any of the criteria, the PDT or CAU designation will be retained for an additional
five years, at which time the taxpayers will once again be reviewed against the five-year renewal
criteria.
Figure 1 shows the number of PDT and CAU cases added to the Employee Protection
System (EPS) during Calendar Years 2008 through 2012. The EPS is a database used to catalog
information about PDT and CAU taxpayer cases. The information includes Personally
Identifiable Information as well as information (description of the incident) describing why the
taxpayer is considered dangerous. The database also includes information on the IRS employee
who reported the incident and contains audit trail information, which can be used to identify
database activity by user identification.
                            Figure 1: PDT and CAU Cases Added
                           For Calendar Years 2008 Through 2012

                              PDT
              Calendar        Case            PDT            CAU Case            CAU
                Year        Closures     Determinations      Closures       Determinations

                2008           960              163              615               601
                2009           989              136              706               695
                2010          1,154             151              774               747
                2011           1531             158              993               967
                2012*          691              117              492               473
           Source: IRS Office of Employee Protection. *Data available through July 2012.

As of July 2012, the IRS had 2,162 active PDT cases, 4,487 active CAU cases, and 662 pending
PDT cases.

Treasury Inspector General for Tax Administration and OEP coordination
With the establishment of the Treasury Inspector General for Tax Administration (TIGTA), the
administration and maintenance of the PDT database was transferred to the OEP in
February 2000. However, the TIGTA was assigned the investigative responsibilities of the
former Inspection Service, and all IRS employees are required to report incidents involving
threats and assaults to the TIGTA Office of Investigations.
One of many responsibilities of the Office of Investigations is to protect the IRS and related
entities against attempts to corrupt or threaten their employees. The Office of Investigations is
responsible for investigating attempts by individuals to corrupt or unlawfully interfere with the
administration of the Federal tax system through such activities as bribery, threats, assaults, or
other unlawful actions that may impact IRS personnel and impede Federal tax administration. It
investigates actions by individuals that may affect the safety of IRS employees.
                                                                                             Page 3
                                Potentially Dangerous Taxpayer and
                       Caution Upon Contact Cases Are Adequately Controlled,
                       but Improvements in Training and Outreach Are Needed



To ensure that IRS employees are aware of their responsibilities and the role the TIGTA plays in
their work lives, the TIGTA provides briefings on assaults, threats, bribery, integrity, and other
security-related topics to IRS employees. TIGTA special agents conducted 294 presentations in
Fiscal Year3 2009 and more than 369 in Fiscal Years 2010 and 2011.
This review was performed in the Small Business/Self-Employed and Wage and Investment
Divisions at the OEP in Detroit, Michigan, and the Accounts Management, Field Assistance,
Examination, and Collection function offices in Atlanta, Georgia; Overland Park, Kansas;
Kansas City, Missouri; Lees Summit, Missouri; and Dallas, Texas, during the period May
through September 2012. We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit objectives. Detailed
information on our audit objectives, scope, and methodology is presented in Appendix I. Major
contributors to the report are listed in Appendix II.




3
 A 12-consecutive-month period ending on the last day of any month, except December. The Federal
Government’s fiscal year begins on October 1 and ends on September 30.
                                                                                                   Page 4
                                 Potentially Dangerous Taxpayer and
                        Caution Upon Contact Cases Are Adequately Controlled,
                        but Improvements in Training and Outreach Are Needed




                                      Results of Review

Controls Are Sufficient to Administer the Potentially Dangerous
Taxpayer and Caution Upon Contact Programs
The OEP has sufficient controls to ensure that cases referred to the PDT and CAU Programs are
appropriately processed and controlled. A review of PDT and CAU cases identified that
determinations were appropriate and the PDT and CAU designations were appropriately applied.
Controls ensure that taxpayer accounts are timely updated with the appropriate indicators.
Additionally, five-year reviews were timely and criteria were appropriately applied to all cases
we reviewed.

EPS records were accurate and complete
Tests of the EPS records showed cases referred to the OEP were controlled and accurately
entered into all IRS systems. Referrals to the OEP come from either the TIGTA Office of
Investigations or through employee submission of Form 13090, Caution Indicator Referral
Report.
       PDT Referrals: Employees are to first contact the TIGTA Office of Investigations when
        an incident occurs that meets PDT criteria. If there is sufficient evidence to initiate a case
        for an investigation, the TIGTA will forward the initial information to the OEP. The
        OEP will place a pending PDT on the taxpayer’s account in the EPS upon receipt of the
        information. Once the investigation is complete, the OEP will make the determination as
        to whether the taxpayer should be designated as a PDT or CAU and, if necessary, update
        the Integrated Data Retrieval System (IDRS).4
       CAU Referrals: Employees are to submit Forms 13090 directly to the OEP. They may
        send the completed Form 13090 by fax, mail, or e-mail through secure messaging. The
        OEP reviews the information and determines whether the referral meets the CAU criteria.
        Once the determination has been made, the OEP staff will update the IDRS and the EPS.
        If the referral meets PDT criteria instead, the OEP will forward the case to the TIGTA to
        conduct an investigation.




4
  IRS computer system capable of retrieving or updating stored information. It works in conjunction with a
taxpayer’s account records.
                                                                                                             Page 5
                                 Potentially Dangerous Taxpayer and
                        Caution Upon Contact Cases Are Adequately Controlled,
                        but Improvements in Training and Outreach Are Needed



Tests of the EPS records showed case information for taxpayers in the PDT and CAU Programs
was effectively maintained and updates were timely made to the IDRS and the Individual Master
File (IMF).5
We performed tests of six statistically valid samples from selected EPS records with active and
pending cases, IMF Entity Table records with PDT or CAU indicators, and TIGTA Performance
and Results Information System (PARIS) records.6 Errors included records erroneously
transmitted, incorrect addresses or Social Security Numbers, and misspellings. The error rates
from the six samples were not statistically significant. None of the errors affected employee
protection and, when advised, the OEP promptly corrected all errors.
Tests of 80 active PDT and CAU records judgmentally selected from the PARIS, IMF Entity
Table records, and EPS records found that indicators were appropriately placed on or removed
from IDRS accounts for all 80 records. Of the 80 records, four were appropriately changed from
PDT to CAU indicators and three were removed from the IDRS as a result of OEP
determinations.

PDT and CAU indicators were appropriately applied
A judgmental sample of 15 cases7 showed that the OEP appropriately applied the PDT and CAU
criteria for each case.
       Five cases had been appropriately determined to be PDT cases.
       Eight cases had been appropriately determined to be CAU cases.
       Two cases had been appropriately determined not to meet the PDT or CAU criteria.

Five-year reviews were timely and criteria were appropriately applied
Tests of 12 cases8 that underwent a five-year review identified established procedures were
appropriately applied to each case. For 10 of the 12 cases, there was current tax activity at the
time of the review and the indicators were extended for another five years. Two cases did not
meet the five-year renewal criteria, and the indicators were appropriately removed from the
taxpayer’s accounts.



5
  The IRS database that maintains transactions or records of individual tax accounts.
6
  The PARIS is a management information system that provides the TIGTA the ability to manage and account for
the thousands of complaints received, investigations initiated, and leads developed from Local Investigative
Initiatives and National Investigative Initiatives.
7
  A judgmental sample was selected from paper files. Ten cases were judgmentally selected from the 6,649 active
PDT and CAU cases, and five cases were judgmentally selected from the 662 pending PDT cases. A judgmental
sample is a nonstatistical sample, the results of which cannot be used to project to the population.
8
  Twelve cases were judgmentally selected from 12 Five-Year Renewal reports that listed a total of 26 cases.
                                                                                                         Page 6
                              Potentially Dangerous Taxpayer and
                     Caution Upon Contact Cases Are Adequately Controlled,
                     but Improvements in Training and Outreach Are Needed



The OEP has developed the Advanced Five-Year Report that is provided to the TIGTA Office of
Investigations to allow special agents to conduct a proactive follow-up investigation on taxpayers
designated as PDTs three months prior to the expiration of the designation. The PDT five-year
renewal criteria are:
      An additional PDT referral was made during the five-year period under review.
      An IRS employee or contractor was physically assaulted.
      An arrest was made by the TIGTA or another law enforcement agency for a threat to, or
       an assault on, an IRS employee or contractor during the five-year period under review.
      The taxpayer’s account shows current IRS activity (e.g., audit or balance due) at the time
       of the review.
The CAU five-year renewal criteria are (1) an additional CAU or PDT referral was made during
the five-year period under review or (2) there is current IRS activity on the taxpayer’s account at
the time of the review.
If any of the noted situations exist at the time of the review, the taxpayer’s PDT or CAU
designation will remain on the account for an additional five years. The five-year renewal
criteria are applied each time a designation comes up for review, regardless of how long a
taxpayer has been in either of the programs.

Training and Guidance on the Potentially Dangerous Taxpayer and
Caution Upon Contact Programs Need Improvement
Our review identified that some IRS employees who have direct contact with taxpayers do not
have sufficient knowledge of the PDT and CAU Programs. Threatening incidents by taxpayers
are not always reported. TIGTA interviews with employees identified several incidents that
were not reported to the TIGTA or the OEP because the employees:
      Were on the telephone with the taxpayer and did not believe the threat was imminent.
      Believed they had calmed the taxpayer.
      Were not intimidated by the threatening behavior.
      Empathized with the taxpayers and were able to attend to the taxpayer’s tax needs.
      Did not recognize the threat.
The failure to report any threat or verbal abuse can put other IRS employees at risk if they later
come into contact with the taxpayer face to face. The OEP is dependent on IRS employees’
ability to recognize when a taxpayer is exhibiting dangerous behavior and to know how to


                                                                                             Page 7
                                Potentially Dangerous Taxpayer and
                       Caution Upon Contact Cases Are Adequately Controlled,
                       but Improvements in Training and Outreach Are Needed



properly identify and report such incidents. The IRS needs to ensure that PDT and CAU training
and guidance is sufficient to protect IRS employees.
Training courses and internal guidance for these employees were incomplete or inaccurate. In
addition, the OEP has not proactively ensured that the business units provide adequate training
and guidance to these employees because of organizational alignment and staffing issues.
Therefore, the IRS cannot be certain that all incidents of taxpayers who may pose a danger to
IRS employees are reported. The Government Accountability Office’s Standards for Internal
Control in the Federal Government9 states:
        Management should ensure that skill needs are continually assessed and that the
        organization is able to obtain a workforce that has the required skills that match those
        necessary to achieve organizational goals. Training should be aimed at developing and
        retaining employee skill levels to meet changing organizational needs. Qualified and
        continuous supervision should be provided to ensure that internal control objectives are
        achieved.

The IRS notes in its Strategic Plan 2009–2013 that one of its objectives is to “ensure the privacy
and security of data and safety and security of employees.” Adequate continual training on the
PDT and CAU Programs and criteria is needed to ensure that this objective is met.

Not all employees have sufficient knowledge of the PDT and CAU Programs
Interviews with 34 IRS employees10 who have direct contact with taxpayers through face-to-face
meetings, telephone calls, or written correspondence found that most do not have sufficient
knowledge of PDT and CAU criteria. In addition, the employees did not have a good
understanding of the PDT and CAU reporting processes or the role of the OEP in providing
employee safety.
Thirty (88 percent) of the 34 IRS employees interviewed had heard of the PDT designation and
knew that a PDT taxpayer is an individual who either assaulted an IRS employee or potentially
poses a danger to an IRS employee. However, employees did not have a sufficient
understanding of all the criteria.
When asked whether they had heard of the CAU designation, only 10 (29 percent) of the
34 employees stated that they had. Only seven (21 percent) of the 34 employees could provide
an adequate description of the difference between a taxpayer designated as a PDT or CAU.
Figure 2 provides the results of our interviews with 34 IRS employees.




9
  General Accounting Office, GAO/AIMD-00-21.3.1, Standards for Internal Control in the Federal Government
(Nov. 1999). In July 2004, the General Accounting Office became the Government Accountability Office.
10
   The 34 employees were judgmentally selected.
                                                                                                      Page 8
                                    Potentially Dangerous Taxpayer and
                           Caution Upon Contact Cases Are Adequately Controlled,
                           but Improvements in Training and Outreach Are Needed



                   Figure 2: Results of TIGTA Interviews With IRS Employees

                                       Responses                                          YES            NO

      Is familiar with the PDT designation.                                               88%            12%

      Is familiar with the CAU designation.                                               29%            71%

      Has an understanding of the difference between PDT and CAU.                         21%            79%

      Has received specific PDT and CAU criteria and procedures training.                 15%            85%

      Mentioned the TIGTA specifically to report incident.                                53%            47%

      Has heard of the OEP and its mission.                                               18%            82%
     Source: TIGTA interviews with IRS employees conducted from June through August 2012.

Two Reader Polls11 conducted in April 2011 and February through March 2012 conducted by the
OEP provided similar results. Figure 3 provides the results of the two Polls.
                                   Figure 3: Results OEP Reader Polls

                     2011 Reader Poll                                            2012 Reader Poll
           7,714 IRS Employees Participated*                             9,017 IRS Employees Participated*

The correct answer is #1, selected by 13 percent of             The correct answer is #2, selected by 46 percent of
the respondents.                                                the respondents.

                                                                Which of the following meets one of the
Which of the following is not one of the
                                                                Potentially Dangerous Taxpayer Program’s
Caution Upon Contact Program’s criteria?
                                                                five criteria?
1. Active member of a group advocating violence                 1. During a telephone call, a taxpayer says he
   against IRS or other Federal employee – 978                     applauds anyone who harms the IRS – 2,122
   (13 percent) responded.                                         (24 percent) responded.
2. Filing or threatening to file legal action against an        2. A taxpayer threatened to shoot state taxing
   IRS employee – 3,289 (43 percent) responded.                    authorities – 4,161 (46 percent) responded.
3. Suicide threat by a taxpayer – 1,740                         3. A taxpayer threatens to shoot herself if notices
   (23 percent) responded.                                         from the IRS don’t stop – 2,734 (30 percent)
                                                                   responded.
4. Threat of physical harm that does not satisfy
   PDT criteria – 1,707 (22 percent) responded.
Source: IRS OEP. * = Participants are considered a judgmental sample.


11
     The IRS provides polls for its employees on its intranet website.
                                                                                                            Page 9
                             Potentially Dangerous Taxpayer and
                    Caution Upon Contact Cases Are Adequately Controlled,
                    but Improvements in Training and Outreach Are Needed



Only five (15 percent) of the 34 employees interviewed responded that they had received specific
training on the OEP and the PDT and CAU Programs. Training courses also do not include
sufficient information on the PDT and CAU Programs, and some employees stated that they
have not received any training.

Training courses do not include sufficient information about the PDT and CAU
Programs
An analysis of seven student training guides and three presentations used to train IRS employees
on the PDT and CAU Programs showed they were not all up to date and did not always provide
IRS employees with the necessary information on the programs and the OEP. Of the 10 guides
and presentations provided by the IRS:
      Nine (90 percent) did not include PDT criteria.
      Six (60 percent) had outdated material.
      Seven (70 percent) did not include the CAU Program or its criteria.
      Five (50 percent) had no material on the OEP.
      Two (20 percent) stated IRS Criminal Investigation should be contacted for armed escort.
       However, effective May 2, 2011, the TIGTA assumed the responsibilities related to all
       armed escorts.
PDT and CAU training should include the PDT and CAU criteria; the definitions of assault,
threat, and intimidation and how they relate to the PDT and CAU criteria; and the role of the
OEP and the TIGTA. The training should underscore the importance of the OEP and its role in
protecting IRS employees, but also emphasize that the OEP is dependent on the employees’
input and ability to recognize and report threats and assaults. Without proper training and
knowledge, the employees might not report taxpayers who should be designated as PDT and
CAU and put IRS employees at risk.

Internal guidance does not include sufficient PDT and CAU Program information
A review of a judgmental sample of 12 Internal Revenue Manual (IRM) sections used by
front-line employees (employees who deal directly with taxpayers), showed eight (67 percent)
did not provide a description of the PDT Program, 11 (92 percent) did not list the PDT criteria,
nine (75 percent) did not provide a description of the CAU Program, and 12 (100 percent) did
not list the CAU criteria. In addition:
      One section incorrectly abbreviated Caution Upon Contact as “EAU” instead of “CAU.”
      Two sections had incorrect reporting information for suicide threats. The two sections
       advised employees to report suicide threats to the TIGTA, rather than to the OEP. The

                                                                                          Page 10
                                  Potentially Dangerous Taxpayer and
                         Caution Upon Contact Cases Are Adequately Controlled,
                         but Improvements in Training and Outreach Are Needed



           IRS has classified suicide threats as CAU; therefore, IRS employees are to report them
           directly to the OEP.
          Two sections incorrectly instruct employees to contact IRS Criminal Investigation for
           armed escort even though the TIGTA has assumed responsibility for armed escorts.
Because IRS training officials and employees stated that they would refer to the IRM to
determine the appropriate action to take, it is imperative that the IRM sections provide accurate
and sufficient PDT and CAU Program information. IRS functions and offices generally have
IRM sections specific to their operations, but employees do have access to and use other portions
of the IRM as necessary. Figure 4 shows the results of the assessment of the 12 IRM sections.
                      Figure 4: Results of the TIGTA’s Review of the IRM12

                                                                                                 Referred to
                    Assessment Criteria                               Yes             No         Another IRM
     The IRM illustrates the relationship between the
     PDT and CAU Programs with TIGTA assaults/threats                 33%            67%                N/A
     and/or OEP procedures.

     The IRM contained reporting procedures for assaults,
                                                                      58%            42%                N/A
     threats, and intimidation.

     The IRM defined assault, threat, and intimidation.               17%            83%                N/A

     The IRM contained suicide reporting procedures.                  17%            75%                8%

     The IRM contained a description of the PDT Program.              33%            58%                8%

     The IRM contains the PDT criteria.                                8%            92%                N/A

     The IRM contains a description of the CAU Program.               25%            67%                8%

     The IRM contains the CAU criteria.                                0%            100%               0%

     The IRM mentions the OEP.                                        33%            67%                N/A

 Source: TIGTA analysis of 12 IRM sections used by front-line employees.

IRM 25.4,13 Special Topics, Employee Protection, and IRM 5.1.3,14 Field Collecting Procedures,
Safety, Security, and Control, provided the most accurate and complete information on the PDT

12
   Due to rounding, the numbers may not always equal 100 percent.
13
   The target audience for IRM 25.4, Special Topics, Employee Protection, is all business operating and functional
divisions with employees whose duties require them to have contact with taxpayers.
14
   The target audience for IRM 5.1.3, Field Collecting Procedures, Safety, Security, and Control, is revenue officers
in the Small Business/Self-Employed Division Collection function.
                                                                                                              Page 11
                                  Potentially Dangerous Taxpayer and
                         Caution Upon Contact Cases Are Adequately Controlled,
                         but Improvements in Training and Outreach Are Needed



and CAU Programs; assault and threat reporting; definitions of assault, threat, and intimidation;
and information on the OEP and the TIGTA Office of Investigations and how they are related, as
well as suicide threat response.

The OEP has developed outreach and training resources, but has not ensured
that all IRS business units provide sufficient training and guidance
The PDT and CAU Programs are dependent on an IRS employee’s ability to recognize behavior
that would require a PDT or CAU designation and properly report such incidents. To help
educate IRS employees of the OEP and the PDT and CAU Programs, the OEP has developed
training and security awareness guides, documents, and newsletters. Some of the training media,
internal guidance, and outreach include:
        OEP website.
        Document 12963 (1-2012) Catalog Number 57529Q, A Guide to the Office of Employee
         Protection Programs.
        OEP Quarterly Newsletters.
        Document 12855 (2-2012) Catalog Number 55374X, Spotlight on Safety.
        IRM 25.4, Employee Protection.
The OEP has also set up a Federal/State data exchange. As a result, State agencies with
reciprocity agreements with the IRS provide the OEP with PDT-related data that occurred at the
State revenue level. As of December 2011, 142 CAU and 15 PDT cases were identified from the
State-lead initiative. In addition, the Chief, OEP, is also a member of the IRS Threat Information
and Critical Response Initiative Working Group, which reviews ways to enhance the IRS’s
emergency response programs.
Finally, the OEP assists IRS executives in updating the IRM and preparing PDT and CAU
Program presentations. However, the OEP has not established a process to periodically review
training or guidance provided by the IRS’s various offices and functions to ensure that it is
complete and accurate. OEP officials stated that resource limitations and organizational
placement have prevented them from doing this. The OEP has experienced difficulty in
obtaining resources for administering the PDT and CAU Programs. The OEP is located within
the Small Business/Self-Employed Division, whose priorities are focused more on taxpayer
compliance activities. The OEP believes that an additional full-time equivalent15 would allow it
to establish the process and controls needed to ensure that employee guidance and training is
complete, accurate, and current.

15
  A measure of labor hours in which one full-time equivalent is equal to eight hours multiplied by the number of
compensable days in a particular fiscal year. For Fiscal Year 2012, one full-time equivalent is equal to 2,080 staff
hours.
                                                                                                             Page 12
                               Potentially Dangerous Taxpayer and
                      Caution Upon Contact Cases Are Adequately Controlled,
                      but Improvements in Training and Outreach Are Needed



An agency’s organizational structure should clearly define key areas of authority and
responsibility and establish appropriate lines of reporting.16 Currently, the OEP is placed within
a specific business division, yet it has agency-wide responsibility. Realigning the OEP so that it
is not within the Small Business/Self-Employed Division may help to better meet its
agency-wide mission of administering programs that track potentially dangerous taxpayers and
those taxpayers who should be approached with caution. In addition, realigning the OEP would
elevate its visibility to help bolster employee awareness across multiple business divisions. It
might also allow the OEP access to resources to engage in proactive agency-wide training and
security involvement.

Recommendations
The Deputy Commissioner for Services and Enforcement should:
Recommendation 1: Establish processes to ensure that all direct contact employees receive
annual PDT and CAU criteria training.
        Management’s Response: IRS management will develop and distribute PDT and
        CAU training material to all operating divisions for required sharing with their public
        contact employees through appropriate means, e.g., unit meetings and training meetings.
Recommendation 2: Ensure that the IRM sections for all front-line employees include
current, complete, and accurate information on the PDT and CAU Programs and establish
processes to periodically ensure that the IRM sections conform to the OEP’s guidelines and
procedures.
        Management’s Response: IRS management will issue a memorandum to all
        operating divisions on the results of this audit and ask that they review their related IRMs
        that reference PDT and CAU procedures to ensure consistency with IRM 25.4. If the
        operating divisions identify inconsistencies, the IRS will ask that they furnish appropriate
        updated guidance. The IRS will also share the results of the specific TIGTA IRM
        reviews referenced in the draft report with the appropriate offices for action.
Recommendation 3: Determine where the OEP would be better aligned in the organizational
structure to enhance its mission of providing an agency-wide service, provide the resources
needed to promote more proactive employee protection activities, and position it to allow
agency-wide visibility to enhance employee awareness.
        Management’s Response: IRS management will evaluate the organizational
        structure to determine the best alignment for the OEP office and prepare a business case
        with recommendations for final executive approval.

16
  General Accounting Office, GAO/AIMD-00-21.3.1, Standards for Internal Control in the Federal Government
(Nov. 1999).
                                                                                                   Page 13
                                    Potentially Dangerous Taxpayer and
                           Caution Upon Contact Cases Are Adequately Controlled,
                           but Improvements in Training and Outreach Are Needed



                                                                                                      Appendix I

           Detailed Objectives, Scope, and Methodology

Our overall objectives were to determine whether the OEP is effectively administering the PDT
and CAU Programs and whether it is proactive in identifying PDTs that might pose a threat to
IRS employees. To accomplish our objectives, we:
I.         Evaluated the IRS’s guidelines and regulations for the OEP’s PDT and CAU Programs
           and determined whether they provide adequate guidance to effectively administer those
           Programs.
           A. Analyzed the guidelines and procedures for the OEP.
           B. Determined whether the IRS has established guidelines and regulations for IRS
              employees who are in direct contact with taxpayers. In addition, we determined
              whether those guidelines and regulations are adequate and explicit enough to ensure
              that the identification and proper reporting of PDTs and CAUs to the appropriate
              offices.
           C. Interviewed OEP officials and obtained documentation on the OEP concept of
              operation, guidelines and regulations, and performance goals and measures.
           D. Interviewed TIGTA Office of Investigations special agents to determine how PDT
              information is obtained from IRS employees and whether any discrepancies in
              reporting procedures have been identified.
           E. Interviewed Wage and Investment Division Accounts Management function, Field
              Assistance Office, and Small Business/Self-Employed Division training coordinators
              and obtained documentation on training curricula that addressed PDT and CAU
              contact procedures.
           F. Determined whether training on the PDT and CAU criteria and reporting is sufficient
              and in accordance with the guidelines established by the OEP and whether it is
              consistent across all IRS organizations that have employees who have direct contact
              with taxpayers. Because the IRS was unable to timely provide a list that ensured that
              all covered front-line employees were included, we interviewed a judgmental sample1
              of 34 employees who have direct contact with taxpayers (individual tax assistant
              specialists, customer service representatives, revenue officers, and examination
              employees) and determined what training they received, what knowledge they have


1
    A judgmental sample is a nonstatistical sample, the results of which cannot be used to project to the population.
                                                                                                               Page 14
                                 Potentially Dangerous Taxpayer and
                        Caution Upon Contact Cases Are Adequately Controlled,
                        but Improvements in Training and Outreach Are Needed



             about PDT and CAU procedures, and what experiences they may have had with such
             taxpayers in the last five years.
        G. Compared, for front-line employees in different functions, the procedures and
           regulations for reporting potential PDT and CAU taxpayers and determined whether
           these procedures were adequate and consistent with the OEP guidelines. We
           identified and reviewed 12 IRM sections that pertained to safety information, security
           procedures, and operational guidelines. These IRM sections are typically used by
           front-line employees, but may not be the only IRM sections that refer to PDT and
           CAU information.
II.     Conducted a walk-through of the EPS and analyzed the data fields for both the PDT and
        CAU inputs. We compared the PDT and CAU entries to the TIGTA PARIS2 Report of
        Investigation information and the IMF Entity Table segments.3
        A. Documented information obtained from the system walk-through and determined the
           data fields used to input PDT and CAU information into the EPS. We determined
           whether the system contains historical information on PDT and CAU cases that have
           been retired. We determined the effectiveness of the PDT and CAU indicator input
           procedures to the IDRS4 and related IRS systems. We determined whether the system
           provides customized reports for data analysis and trending.
        B. Obtained PARIS information on PDT cases from the TIGTA Office of Investigations
           and verified the accuracy of the data in the EPS. We selected a statistical random
           sample of 70 records from the 1,384 PARIS PDT records received from the TIGTA
           Office of Investigations for the period April 1, 2011, through April 30, 2012. We
           used a 95 percent confidence level, a ±5 percent precision rate, and a 5 percent error
           rate. We compared the sample to the EPS and determined whether the information
           was input as a PDT or CAU or whether the case did not meet PDT or CAU criteria
           and a pending code was archived.
        C. From 15 cases, analyzed how many referrals were designated as PDTs or CAUs or
           did not meet either the PDT or CAU criteria and determined whether the OEP
           appropriately applied the PDT and CAU criteria for each case. Due to resource
           constraints, 10 cases were judgmentally selected from the 6,649 active PDT and CAU
           cases, and five cases were judgmentally selected from the 662 pending PDT cases.



2
  The PARIS is a management information system that provides the TIGTA the ability to manage and account for the
thousands of complaints received, investigations initiated, and leads developed from Local Investigative Initiatives
and National Investigative Initiatives.
3
  The IMF is the IRS database that maintains transactions or records of individual tax accounts.
4
  IRS computer system capable of retrieving or updating stored information. It works in conjunction with a
taxpayer’s account records.
                                                                                                          Page 15
                                Potentially Dangerous Taxpayer and
                       Caution Upon Contact Cases Are Adequately Controlled,
                       but Improvements in Training and Outreach Are Needed



        D. For those cases that did not meet PDT or CAU criteria, determined whether the
           Office of Investigations appealed the decision and whether the information is
           annotated in the PARIS.
        E. Obtained the IMF Entity Table segment for cycle 201221 and identified taxpayers
           with PDT and CAU indicators. We selected a statistical random sample of 71 records
           from 2,751 records on the IMF Entity Table segment where the PDT Indicator
           equaled 1 (PDT). We selected a statistical random sample of 72 records from
           4,490 records on the IMF Entity Table segment where the PDT Indicator equaled 2
           (CAU). For both queries we used a 95 percent confidence level, a ±5 percent
           precision rate, and a 5 percent error rate and verified information against the EPS.
        F. Obtained reports from the EPS for all the records in the PDT and CAU databases.
           We did not obtain access to the EPS because of TIGTA and IRS system
           incompatibility. We obtained PDT, CAU, and Pending PDT reports dated July 2012
           and determined the number of active PDT and CAU records. The three reports reflect
           the active PDT and CAU Program cases as of the date the reports were generated.
           The Pending PDT cases will be closed upon completion of the TIGTA Office of
           Investigation’s Report of Investigation. We used the number of records from the
           reports to select a statistical sample with a 95 percent confidence level, a ±5 percent
           precision rate, and a 5 percent error rate to verify records against IMF Entity Table
           segments for PDT and CAU information.
        G. Due to resource constraints, we judgmentally selected 20 records from each sample
           grouping5 (80 records) where an active PDT or CAU indicator was confirmed and
           determined if a PDT indicator is present on the IDRS. In addition, we selected a
           judgmental sample of 10 records where an active PDT or CAU indicator was
           confirmed and determined whether an indicator is present on the Accounts
           Management System.
        H. Determined whether the OEP procedure to conduct five-year reviews is effective and
           considered both the rights of taxpayers and the continuing safety concerns of
           employees by selecting a judgmental sample of 12 cases from 12 Five-Year Renewal
           reports that listed 26 cases with PDT designations of more than five years.
        I. Determined whether the EPS data are unreliable or PDT/CAU designations are
           improperly applied to taxpayer accounts.




5
 Judgmental sample groupings consist of 20 PARIS records, 20 IMF Entity Table records with PDT indicators,
20 IMF Entity Table records with CAU indicators, and 20 EPS records.
                                                                                                     Page 16
                              Potentially Dangerous Taxpayer and
                     Caution Upon Contact Cases Are Adequately Controlled,
                     but Improvements in Training and Outreach Are Needed



III.   Determined the proactive steps the OEP has in place to identify and/or track previously
       identified PDTs.
       A. Determined whether the OEP has procedures to identify PDTs and CAUs outside of
          routine internal IRS reporting procedures.
       B. Determined whether the OEP provides training on PDT and CAU criteria to IRS
          employees.
       C. Determined whether the OEP has developed a training guide for IRS employees and
          whether it is distributed agency-wide.
       D. Determined whether the IRS and/or the TIGTA Office of Investigations are
          responsible for tracking existing PDTs and monitoring their activities related to
          Federal tax administration.
       E. Determined the relationship, if any, between the PDT and CAU Programs and overall
          IRS risk management.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: the OEP’s desk guides and flowcharts, the
PDT and CAU Programs’ IRMs, and practices for ensuring the accuracy of the EPS. We
evaluated these controls by interviewing management and employees, reviewing the IRM,
visiting sites, reviewing EPS reports, and analyzing information on the EPS.
Evaluating the Reliability of Computer-Processed Data
To assess the reliability of the EPS data and the electronic exchange of data between the TIGTA
Office of Investigations and the OEP, we interviewed TIGTA Office of Investigations personnel
and OEP specialists, conducted a walk-through of the EPS, reviewed the EPS User Guide, and
compared 10 records from the TIGTA Office of Investigations PARIS report to the actual EPS
database while visiting the OEP in Detroit, Michigan. We verified the PARIS information
against the EPS data and were able to determine that controls were in place and appropriate for
the exchange of data between the two systems. The 10 records reviewed were at one time
present in the EPS and are categorized as PDT, CAU, Pending, or Archived.
We relied on the TIGTA Information Technology Data Center Warehouse’s assessment of the
IMF Entity Table segment cycle 201221. The Data Center Warehouse personnel take several
steps to ensure that IMF data are accurate. During the testing and post-processing, the data are
analyzed to verify the data values were correctly extracted from the original file, the values look
reasonable, money amounts have/do not have the correct decimal places, etc. This is done

                                                                                            Page 17
                             Potentially Dangerous Taxpayer and
                    Caution Upon Contact Cases Are Adequately Controlled,
                    but Improvements in Training and Outreach Are Needed



through printing out a subset of output records and physically reviewing the records, running
frequency analyses on applicable fields showing all values existing for that field, and using IRS
utilities/IDRS validation to display actual account data for a comparison between the data on the
Data Central Warehouse file and what exists on IRS systems.




                                                                                          Page 18
                            Potentially Dangerous Taxpayer and
                   Caution Upon Contact Cases Are Adequately Controlled,
                   but Improvements in Training and Outreach Are Needed



                                                                              Appendix II

                 Major Contributors to This Report

Augusta R. Cook, Acting Assistant Inspector General for Audit (Returns Processing and Account
Services)
Paula W. Johnson, Acting Director
Jean Bell, Acting Audit Manager
Tracy Harper, Lead Auditor
Jackie Forbus, Senior Auditor
Jerome Antoine, Auditor
Jeremy Berry, Auditor




                                                                                     Page 19
                           Potentially Dangerous Taxpayer and
                  Caution Upon Contact Cases Are Adequately Controlled,
                  but Improvements in Training and Outreach Are Needed



                                                                         Appendix III

                        Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Commissioner, Small Business/Self-Employed Division SE:S
Commissioner, Wage and Investment Division SE:W
Chief, Office of Employee Protection, Small Business/Self-Employed Division SE:S:CS:P&G
Director, Accounts Management, Wage and Investment Division SE:W:CAS:AM
Director, Enterprise Collection Planning and Governance, Small Business/Self-Employed
Division SE:S:CS:P&G
Director, Field Assistance, Wage and Investment Division SE:W:CAR:FA
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
    Chief, Program Evaluation and Improvement, Wage and Investment Division SE:W:S:PEI
    Communication and Stakeholders Outreach, Small Business/Self-Employed Division
    SE:S:CSO:SL:HQ




                                                                                 Page 20
               Potentially Dangerous Taxpayer and
      Caution Upon Contact Cases Are Adequately Controlled,
      but Improvements in Training and Outreach Are Needed



                                                   Appendix IV

Management’s Response to the Draft Report




                                                         Page 21
         Potentially Dangerous Taxpayer and
Caution Upon Contact Cases Are Adequately Controlled,
but Improvements in Training and Outreach Are Needed




                                                   Page 22
         Potentially Dangerous Taxpayer and
Caution Upon Contact Cases Are Adequately Controlled,
but Improvements in Training and Outreach Are Needed




                                                   Page 23
